No. 19IN THE SUPREME COURT OF THE UNITED STATES
KANEKA CORPORATION, a Japanese Corporation,
Petitioner,
v.
XIAMEN KINGDOMWAY GROUP COMPANY, a Chinese Corporation,
PACIFIC RAINBOW INTERNATIONAL INC., a
California Corporation,
Respondents.
ON APPLICATION FOR EXTENSION OF TIME
TO FILE PETITION FOR WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE FEDERAL CIRCUIT
PETITIONER’S APPLICATION FOR EXTENSION OF TIME TO FILE
PETITION FOR WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE FEDERAL CIRCUIT

William F. Sondericker
Counsel of Record
CARTER LEDYARD & MILBURN LLP
Two Wall Street
New York, New York 10005
(212) 732-3200
sondericker@clm.com
Supreme Court Bar No. 58753
Attorneys for Petitioner
Kaneka Corporation
September 25, 2019

APPLICATION FOR EXTENSION OF TIME TO FILE
PETITION FOR WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE FEDERAL CIRCUIT
To the Honorable Justice John G. Roberts, Jr., Chief Justice of the Supreme
Court of the United States and Circuit Justice for the United States Court of Appeals
for the Federal Circuit:
Pursuant to Rules 13.5, 21, 22, and 30.2 of this Court, Petitioner Kaneka
Corporation respectfully requests that its time to file a Petition for a Writ of
Certiorari to the United States Court of Appeals for the Federal Circuit be extended
for 60 days, to and including January 10, 2020.
The Court of Appeals for the Federal Circuit issued an opinion on May 13,
2019 (see Appendix A) and denied Petitioner’s Petition for panel rehearing and
rehearing en banc on August 12, 2019 (see Appendix B). Petitioner is filing this
application at least ten days prior to the current due date of November 11, 2020. See
S. Ct. R. 30.2. This Court would have jurisdiction over the judgment pursuant to 28
U.S.C. § 1254(1).
BACKGROUND
Petitioner is a Japanese corporation that holds a patent that claims industrial
processes for producing oxidized coenzyme Q10, a molecular compound used in
various health supplements. A jury determined the patent not to be invalid in a
related action in the United States District Court For The Southern District Of Texas.
1

In the action below, the Central District of California granted respondents’ partial
summary judgment motion based on alternative holdings which changed the Federal
Circuit’s prior construction of the claims of the patent. Instead of proceeding to trial,
Kaneka stipulated to final judgment of non-infringement based on the changed claim
construction. On appeal, a Federal Circuit panel questioned during oral argument
whether the District Court had changed the claim construction, yet the panel still
affirmed final judgment under Federal Circuit Rule 36. The Petition for a Writ of
Certiorari will ask the Supreme Court to determine, inter alia, whether the Federal
Circuit’s affirmance of judgments under Rule 36 without opinion on claim
construction issues, combined with a Circuit split on the issue of collateral estoppel,
can improperly preclude patent holders from enforcing their valid patents in
violation of the Fifth and Seventh Amendments and Article I, Section 8, Clause 8 of
the Constitution.
REASONS FOR GRANTING AN EXTENSION OF TIME
Petitioner’s time to file a Petition for a Writ of Certiorari should be extended
for 60 days for the following reasons:
1.

The record in this case is large and includes prior decisions in a

proceeding in the United States International Trade Commission, two parallel
litigations respectively in the United States District Courts for the Central District
Of California and the Southern District Of Texas, and four appeals in the United
2

States Court Of Appeals for The Federal Circuit. Petitioner needs additional time to
file its Petition so that the undersigned counsel can fully examine and study the
record in this case.
2.

Petitioner is a corporation located in Osaka, Japan. The Petitioner’s

corporate officers who are responsible for the Petition work in Osaka, Japan. Some
of these corporate officers do not read or speak English. The undersigned counsel
works in New York, New York. Petitioner needs additional time to file the Petition
so that the undersigned counsel can properly advise Kaneka’s executives on the
Petition, which will be prolonged because of the time difference between New York
and Osaka and language differences.
3.

Petitioner and the undersigned counsel are also seeking professional

counsel and advice from a co-author of “Supreme Court Practice, Tenth Edition”
with the preparation of the Petition. The undersigned counsel has scheduled an
initial meeting with the co-author during the first week of October, which was his
earliest available date. Petitioner needs additional time to file the Petition so that the
undersigned counsel can obtain assistance and advice from the co-author.
4.

The undersigned counsel will also be seeking other companies

interested in filing amicus Petitions for Certiorari on this important issue which can
prevent a patent holder from enforcing its valid patent. Petitioner needs additional

3

time to file the Petition so that undersigned counsel can contact interested parties
and those parties can prepare an amicus Petition.
5.

The mandate from the Federal Circuit has already been issued in this

case. Consequently, the requested 60-day extension would not delay the issuance
of the mandate.
CONCLUSION

For the reasons stated above, Petitioner Kaneka Corporation respectfully
requests that the time to file a Petition for a Writ of Certiorari in this matter be
extended by 60 days, from November 11, 2019, through and including January 10,
2020.

Respectfully submitted,

//

4

/Z1liai

Sondericker
CARTER LEDYARD & MILBURN LLP
Two Wall Street
New York, New York 10005
212-732-3200
sondericker@clm.com
Supreme Court Bar No. 58753
Attorneys for Appellant
Kaneka Corporation

4

